U.S. Department of Labor                      Office of Inspector General
                                                   Washington, D.C. 20210




                           DEPUTY INSPECTOR GENERAL’S REPORT
TO THE HONORABLE                                         includes assessing the accounting principles used
ELAINE L. CHAO                                           and significant estimates made by management, as
SECRETARY OF LABOR                                       well as evaluating the overall financial statement
                                                         presentation. We believe that our audit provides a
The Chief Financial Officers Act of 1990 (CFO            reasonable basis for our opinion.
Act) requires agencies to report annually to Con-
gress on their financial status and any other infor-     RELATIONSHIP TO THE
mation needed to fairly present the agencies’ finan-     SINGLE AUDIT ACT
cial position and results of operations. To meet the
CFO Act reporting requirements, the United States        The financial statements for the years ended
Department of Labor (DOL), a Department of the           September 30, 2001 and 2000, include:
United States Government, prepares annual finan-
cial statements, which we audit.                         S   costs for grants, subsidies, and contributions
                                                             primarily with various state and local govern-
The objective of our audit is to express an opinion          ments and nonprofit organizations in the
on the fair presentation of DOL’s Fiscal Year 2001           amount of $8.2 billion for FY 2001 and $8.1
and 2000 principal financial statements. Our                 billion for FY 2000;
objective also is to obtain an understanding of the
Department’s internal control and test compliance        S   costs for unemployment benefits incurred by
with laws and regulations that could have a direct           state employment security agencies in the
and material effect on the financial statements.             amount of $28.6 billion for FY 2001 and
                                                             $21.1 billion for FY 2000;
We have audited the consolidated balance sheets of
DOL as of September 30, 2001 and 2000, and the           S   state employer tax revenue of $19.9 billion for
related consolidated statements of net cost, changes         FY 2001 and $19.7 billion for FY 2000;
in net position, budgetary resources, financing, and
custodial activity for the years then ended. These       S   net receivables for state unemployment taxes,
financial statements are the responsibility of DOL’s         reimbursable employers, and benefit
management. Our responsibility is to express an              overpayments of $.9 billion for FY 2001 and
opinion on these financial statements based on our           $.7 billion for FY 2000; and
audit.
                                                         S   reimbursements from state, local, and
We conducted our audit in accordance with audit-             nonprofit reimbursable employers for
ing standards generally accepted in the United               unemployment benefits paid on their behalf in
States of America; the standards applicable to               the amount of $1.0 billion for FY 2001 and
financial audits contained in Government Auditing            $1.0 billion for FY 2000.
Standards, issued by the Comptroller General of
the United States; and Office of Management and          Our audit included testing these costs, financing
Budget (OMB) Bulletin 01-02, Audit Requirements          sources, and balances at the Federal level only.
for Federal Financial Statements. These stan-            Pursuant to a mandate by Congress, the
dards require that we plan and perform the audit to      examination of these transactions below the
obtain reasonable assurance about whether the            Federal level is primarily performed by various
financial statements are free of material misstate-      auditors in accordance with the Single Audit Act
ments. An audit includes examining, on a test            of 1984, as amended, and OMB Circular A-133.
basis, evidence supporting the amounts and disclo-       The results of those audits are reported to each
sures in the financial statements. An audit also         Federal agency which provides direct grants, and
each Federal agency is responsible for resolving       In planning and performing our audit, we
findings for its awards.                               considered DOL’s internal control over financial
                                                       reporting by obtaining an understanding of the
OPINION ON FINANCIAL STATEMENTS                        Department’s internal control, determined whether
                                                       internal controls had been placed in operation,
In our opinion the financial statements referred to    assessed control risk, and performed tests of
above present fairly, in all material respects, in     controls in order to determine our auditing
conformity with accounting principles generally        procedures for the purpose of expressing our
accepted in the United States of America:              opinion on the financial statements. We limited
                                                       our internal control testing to those controls
S   the assets, liabilities, and net position of the   necessary to achieve the objectives described in
    Department of Labor as of September 30, 2001       OMB Bulletin No.01-02. We did not test all
    and 2000; and                                      internal controls relevant to operating objectives
                                                       as broadly defined by the Federal Managers’
S   the net cost, changes in net position, budgetary   Financial Integrity Act of 1982. The objective of
    resources, reconciliation of net cost to           our audit was not to provide assurance on internal
    budgetary resources, and custodial activity for    control. Consequently, we do not provide an
    the years ended September 30, 2001 and 2000.       opinion on internal control.

OTHER ACCOMPANYING                                     Our consideration of the internal control over
INFORMATION                                            financial reporting would not necessarily disclose
                                                       all matters in the internal control over financial
Our audit was conducted for the purpose of             reporting that might be reportable conditions.
forming an opinion on the consolidated financial       Under standards issued by the American Institute
statements of DOL taken as a whole. The                of Certified Public Accountants, reportable
accompanying financial information discussed           conditions are matters coming to our attention
below is not a required part of the principal          relating to significant deficiencies in the design or
financial statements.                                  operation of the internal control that, in our
                                                       judgment, could adversely affect the agency’s
The required supplementary information, included       ability to record, process, summarize, and report
in the Management Discussion and Analysis and          financial data consistent with the assertions by
FY 2001 Financial Performance Report sections of       management in the financial statements. Material
the Performance and Accountability Report and the      weaknesses are reportable conditions in which the
Required Supplementary Stew-ardship Information        design or operation of one or more of the internal
are required by the Federal Accounting Standards       control components does not reduce to a relatively
Advisory Board and OMB Bulletin No. 97-01. We          low level the risk that misstatements in amounts
have applied limited procedures, which consisted       that would be material in relation to the financial
principally of inquiries of management regarding       statements being audited may occur and not be
the methods of measurement and presentation of         detected within a timely period by employees in
the information. However, we did not audit the         the normal course of performing their assigned
information and express no opinion on it.              functions. Because of inherent limitations in
                                                       internal controls, misstatements, losses, or
The information in the Annual Performance Report       noncompliance may nevertheless occur and not be
and the appendices of DOL’s Performance and            detected. We noted certain matters, discussed in
Accountability Report is presented for purposes of     the following paragraphs, involving the internal
additional analysis. Such informa-tion has not         control and its operations that we consider to be
been subjected to the auditing procedures applied in   reportable conditions. However, none of the
the audits of the consolidated financial statements    reportable conditions is believed to be a material
and, accordingly, we express no opinion on it.         weakness.

REPORT ON INTERNAL CONTROL                             In addition, we considered DOL’s internal control
                                                       over Required Supplementary Stewardship
                                                       Information by obtaining an understanding of the
agency’s internal controls, determining whether         BAM results are reported each year in the UI
they had been placed in operation, assessed control     Performs annual report.
risk, and performed tests of controls as required by
OMB Bulletin No. 01-02. The objective of our            From FY 1997 to 2000, the BAM data reflect
audit was not to provide assurance on these internal    little change in the UI overpayment rates. In fact,
controls. Accordingly, we do not provide an             the overpayment rate has remained relatively flat
opinion on such controls.                               since 1989 at about 8.5 percent. These data
                                                        indicate a lack of significant improvement in the
Finally, with respect to internal control relating to   states methods and systems for preventing
performance measures included in the Performance        overpayments.
Report, we obtained an understanding of the design
of significant internal controls relating to the        According to management, the BAM payment
existence and completeness assertions as required       accuracy data is a management tool that states can
by OMB Bulletin No. 01-02. Our procedures were          use to identify areas of UI program operations that
not designed to provide assurance on internal           could be improved, but due to differences in state
control over reported performance measures, and,        UI laws, the BAM payment accuracy data are not
accordingly, we do not provide an opinion on such       considered comparable between states.
controls.                                               Accordingly, the BAM payment accuracy data are
                                                        not used by ETA as an indicator to identify the
REPORTABLE CONDITIONS                                   need for corrective action or to measure
                                                        improvements (or lack thereof) to existing benefit
Current Year Reportable Conditions                      payment systems. Also, the BAM payment
                                                        accuracy data are not used to identify states that
Unemployment Trust Fund Benefit                         are doing a good job of preventing and detecting
Overpayments                                            overpayments for purposes of developing best
                                                        practices or sharing successful methodologies.
The Office of Workforce Security (OWS) has two
systems which measure benefit overpayments for          While the FY 2001 BAM data reflect significantly
the UI program. These systems play an important         higher overpayments than those established and
role in detecting and preventing overpayment of UI      reported by the BPC ($2.3 billion versus $669
benefits, and as such are part of management’s          million, respectively), management believes that a
controls to ensure that UI resources are used           significant portion of the $2.3 billion in
consistent with the agency mission and are              overpayments, such as work search issues, may
safeguarded from waste, fraud, and                      not be cost effective to pursue. Although a cost-
mismanagement.                                          benefit analysis has not been performed, current
                                                        BPC procedures do not address such benefit
Each state has a Benefit Payment Control (BPC)          eligibility issues as work search.
system to identify and investigate benefit
overpayments. The states reported overpayments          Since the overpayment rates reflect little reduction
for FY 2001 and FY 2000 of approximately $669           in the payment of erroneous benefits in the past 12
and $599 million, respectively.                         years, and given the recent President’s
                                                        Management Agenda, we believe there is a need
The states also have a Benefits Accuracy                for improvement in controls. While management
Measurement (BAM) unit. The BAM unit uses               is taking great efforts to measure benefit
statistical sampling techniques to determine the        overpayments, it is evident that these efforts have
accuracy of UI benefit payments and project these       not resulted in reduced overpayment rates or
sample results to the entire benefit payment            improved safeguarding of trust fund assets. The
universe. BAM management concludes that their           effect of not improving controls over benefit
projections have a very high degree of accuracy,        payments and overpayment detection will be the
due to the sampling precision achieved and the care     continued loss of significant trust fund resources.
taken to ensure that samples are randomly selected
and are tested consistently throughout the country.
Management has provided information on                 which meet JFMIP property management system
initiatives being developed to help states reduce or   requirements.
detect erroneous benefit payments.
                                                       Prior Year Reportable Conditions
We recommend that the Chief Financial Officer
and the Assistant Secretary for Employment and         IT Controls
Training ensure that OWS management:
1) develop a written plan to utilize the data          DOL has made progress in resolving issues from
produced by the BAM unit as the impetus for im-        prior year audits in the areas of controls to protect
proving internal controls over the benefit payment     information, system development life cycle
process; 2) accelerate efforts to pursue wage and      methodology and maintaining continuity of
employment information at the state and national       operations. However, DOL continues to face
levels which will assist ETA in preventing overpay-    significant risks in these areas that should be
ments and detecting overpayments on a timely           addressed.
basis; 3) compile BPC overpayment data in
categories consistent with those used for the BAM      DOL Continues its Need to Further Strengthen
data, in order to identify which types of overpay-     Controls to Protect Its Information
ments are not being detected by the BPC and use
the data to prioritize the areas most in need of       Although DOL has made improvements in its
improvement; and 4) perform and document a cost        Department-wide security programs and practices,
benefit analysis for those overpayments identified     we identified weaknesses in management's
as not being detected by the BPC, in order to          procedures for assessing risks, implementing an
determine whether or not additional resources          effective security framework, periodically
should be dedicated in these areas.                    monitoring its framework, timely resolving issues
                                                       identified or reported upon, and effectively
Accountable Property                                   implementing and maintaining its access controls.

During our audit, we noted several agencies did not    Areas where improvements could be made
have written procedures and systems to identify and    include:
track accountable property (general property,
plant, and equipment that does not meet the            •    entity-wide security programs and
Department’s capitalization threshold).                     associated policies and procedures for
                                                            developing, implementing and monitoring
JFMIP states that property management systems               Local Area Network (LAN), distributed
are critical for establishing financial accounting          systems, and mainframe environments;
and maintaining physical accountability over           •    establishment of a security management
property. According to the JFMIP, one category of           structure and clear assignment of
property which must be tracked includes sensitive           responsibilities;
or controlled property that is expensed when           •    implementation of effective security-related
acquired.                                                   personnel policies and procedures;
                                                       •    certification and Accreditation of appropriate
Management concurs with the need to improve                 general support and major application
controls over accountable property in order to              systems; and
safeguard those assets from loss or theft.             •    logical controls over the configuration of
                                                            security parameters, data files, and software
We recommend that the Chief Financial Officer               programs.
and the Assistant Secretaries for Administration
and Management, Employment and Training, and
Employment Standards: 1) establish written
procedures for identifying and tracking all
accountable property; and 2) develop systems, for      DOL Continues its Need to Further Enforce its
identifying and tracking accountable property,         Systems Development Life Cycle Methodology
DOL systems were not properly controlled in the         decrease in differences at the ALC level from the
areas of change control policies and procedures,        prior year, and in the current year, transactions
access to software libraries and the development        processed through non-DOL ALCs were
and updating of critical system documentation.          effectively reconciled at year end. However,
The Department issued DOL Systems Development           unreconciled differences related to prior years still
and Life Cycle Management Manual (SDLCM)                exist in ETA.
last year and agencies are in the process of
updating systems to comply with the manual. The         While ETA management has proposed corrective
SDLCM provides the life cycle policies and              action plans to address this issue, the prior year
procedures to be followed by all DOL agencies.          differences have not been cleared. We will review
The Department’s Computer Security Handbook             ETA’s progress in our FY 2002 audit.
also requires agencies to update their System
Security Plans as the system progresses throughout      In FY 2002, management plans to fully implement
its life cycle.                                         the use of an electronic bulk file transfer to submit
                                                        all departmental SF-224s to Treasury monthly.
DOL Continues its Need to Complete and Fully            The effectiveness of this procedure in reducing
Test Its Plan(s) for Maintaining Continuity of          unreconciled differences will be assessed in the
Operations                                              FY 2002 audit.

DOL has several weaknesses that would impair the        Accounting for Grants
Department’s ability to effectively respond to a
disruption in business operations as a result of a      ETA’s grant accounting has the following
disaster or another event causing an extended           deficiencies:
service interruption including identification of
alternate data processing and telecommunications        •    While ETA initiated reconciliations of grant
facilities, and thorough successful testing of               transactions recorded in the Department’s
contingency plans.                                           general ledger with the HHS Payment
                                                             Management System, which disburses grant
The Department’s Computer Security Handbook                  funds, some adjustments identified in the
provides policy and procedural guidance to DOL               process were not recorded in the two systems.
agencies regarding contingency planning. The
OCIO office recently created a special working          •    Transfers of WIA funds between programs
group for contingency planning. This working                 were not accounted for in ETA’s accounting
group will include members from each DOL                     records.
agency and develop detailed templates and               •    We continued to note that ETA’s grant and
procedures for contingency planning applicable to            contract costs were not recorded timely. In
all DOL agencies.                                            addition, ETA is not following up with
                                                             grantees who are delinquent in reporting
Unreconciled Differences with Treasury                       grant costs.
                                                        •    We continue to note errors in transactions
We have previously reported the lack of document-            recorded for ETA’s grants and contracts.
level cash reconciliations being performed for               Eleven of the 40 regional office grants had
Departmental Agency Location Codes (ALCs).                   cost or obligation errors, and we noted over
We also noted a lack of cash reconciliations being           100 cost entries recorded at the national
performed at the appropriation level for                     office that were not supported by grantee cost
departmental transactions processed through non-             reports and were considered to be errors.
DOL ALCs. This lack of timely and effec-tive            •    ETA operates without written grant ac-
reconciliations resulted in large cash differences at        counting procedures, both at the regional and
year end.                                                    National offices.
                                                        ETA management believes that they have
In FY 2001, the Department improved its                 implemented various improvements over the years
reconciliation procedures at both the ALC and           to address these audit findings; however, we
appropriation level. We noted a 22 percent overall      conclude that the FY 2001 audit results indicate a
need for further improvement in each of the areas    laws and regulations applicable to DOL.
indicated above.
                                                     The results of our tests of compliance with the
Wage and Hour’s Back Wage System                     laws and regulations described in the preceding
                                                     paragraph, exclusive of FFMIA, disclosed
In FY 2001, ESA implemented a new subsidiary         instances of noncompliance with the following
system to account for back wage activities. While    laws and regulations that are required to be
the new system provides improved controls over       reported under Government Auditing Standards
back wages, additional improvements are necessary    and OMB Bulletin No.01-02, which are described
to ensure that back wage accounts are accurate and   below.
up to date. Wage and Hour also needs to improve
the processes used to reconcile cash activity        Grant Closeout Process
recorded in the subsidiary system with that
recorded in the general ledger.                      While ETA has improved the grant closeout
                                                     process, improvements are still needed to ensure
ESA management agrees with these findings, and       that grants are identified for closure and are closed
has indicated that they are developing various       on a timely basis, in accordance with 29 CFR
system improvements and procedural changes           97.50, 29 CFR 95.71, and other applicable
which will be implemented throughout FY 2002.        regulations and departmental policy. Management
                                                     concurs and is in the process of developing
Wage and Hour’s Civil Monetary Penalties             improved procedures to ensure that grants and
(CMP) System                                         contracts are closed timely.

In prior audits, we recommended that Wage and        The results of our tests of compliance disclosed no
Hour implement a new subsidiary system for           instances of noncompliance with other laws and
recording CMP activities, due to certain             regulations discussed in the preceding paragraph
weaknesses in the existing system. While efforts     exclusive of FFMIA that are required to be
were made to implement these changes, the revised    reported under Government Auditing Standards or
system was not completed during FY 2001. In          OMB Bulletin No.01-02.
addition, we continued to note that new penalty
cases and cash receipts were not recorded timely.    COMPLIANCE WITH FFMIA
Generally, ESA concurs with these findings and
has agreed to take additional steps to improve the   Under FFMIA, we are required to report whether
internal controls over CMP activities.               the Department’s financial management
                                                     systems substantially comply with the Federal
REPORT ON COMPLIANCE WITH LAWS                       financial management systems requirements,
AND REGULATIONS                                      applicable Federal accounting standards, and the
                                                     United States Government Standard General
The management of DOL is responsible for             Ledger (SGL) at the transaction level. To meet
complying with laws and regulations applicable to    this requirement, we performed tests of
the Department. As part of obtaining reasonable      compliance with FFMIA section 803(a)
assurance about whether the Department’s             requirements.
financial statements are free of material
misstatement, we performed tests of its compliance   The results of our tests disclosed no instances in
with certain provisions of laws and regulations,     which the agency’s financial management systems
noncompliance with which could have a direct and     did not substantially comply with the three
material effect on the determination of financial    requirements discussed in the preceding
statement amounts and certain laws and regulations   paragraph.
specified in OMB Bulletin No.01-02, including the
requirements referred to in the Federal Financial    Providing an opinion on compliance with certain
Management Improvement Act of 1996 (FFMIA).          provisions of laws and regulations was not an
We limited our tests of compliance to these          objective of our audit and, accordingly, we do not
provisions and we did not test compliance with all   express such an opinion.
                   —————

This report is intended solely for the information
and use of the management of the U.S. Department
of Labor, the Office of Management and Budget,
and Congress and is not intended to be and should
not be used by anyone other than these specified
parties.



JOHN J. GETEK
Deputy Inspector General for Audit

January 11, 2002
